<html>
<title> - PROBLEMS FACING NATIVE AMERICAN YOUTH</title>
<body><pre>[Senate Hearing 107-758]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-758

                 PROBLEMS FACING NATIVE AMERICAN YOUTHS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

      OVERSIGHT HEARING ON PROBLEMS FACING NATIVE AMERICAN YOUTHS

                               __________

                             AUGUST 1, 2002
                             WASHINGTON, DC


82-753              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. INOUYE, Hawaii, Chairman

            BEN NIGHTHORSE CAMPBELL, Colorado, Vice Chairman

KENT CONRAD, North Dakota            FRANK MURKOWSKI, Alaska
HARRY REID, Nevada                   JOHN McCAIN, Arizona,
DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
PAUL WELLSTONE, Minnesota            CRAIG THOMAS, Wyoming
BYRON L. DORGAN, North Dakota        ORRIN G. HATCH, Utah
TIM JOHNSON, South Dakota            JAMES M. INHOFE, Oklahoma
MARIA CANTWELL, Washington

        Patricia M. Zell, Majority Staff Director/Chief Counsel

         Paul Moorehead, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Biggs, Vincent M., M.D., American Academy of Pediatrics......     9
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      vice chairman, Committee on Indian Affairs.................     1
    Cook, J.R., executive director, United National Indian Tribal 
      Youth, Inc.................................................    11
    Dorsett, Teresa, member, Cheyenne-Arapaho Tribes of Oklahoma.    13
    Lewis, Dan, chairman, Boys and Girls Clubs of America, Native 
      American National Advisory Committee.......................    19
    Lowery, Nick, Native Vision..................................    15
    McCaleb, Neal, assistant secretary, BIA, Department of the 
      Interior...................................................     5
    Mehojah, Bill, director, Office of Indian Education Programs, 
      BIA........................................................     8
    Walters, John P., director, Office of National Drug Control 
      Policy.....................................................     2

                                Appendix

Prepared statements:
    American Psychiatric Association.............................    34
    Biggs, Vincent M. (with attachment)..........................    38
    Cook, J.R....................................................    46
    Dorsett, Teresa (with attachment)............................    53
    Lewis, Dan (with attachment).................................    62
    Lowery, Nick.................................................    66
    McCaleb, Neal................................................    31
    Walters, John P. (with attachments)..........................    73

 
                 PROBLEMS FACING NATIVE AMERICAN YOUTH

                              ----------                              


                        THURSDAY, AUGUST 1, 2002


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2 p.m. in room 
485, Senate Russell Building, Hon. Ben Nighthorse Campbell 
(vice chairman of the committee) presiding.
    Present: Senator Campbell.

 STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR FROM 
      COLORADO, VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Campbell. Welcome to the committee hearing on the 
problems faced by Native American youngsters today. I thank our 
Chairman Senator Inouye for allowing me to schedule and chair 
this hearing because I believe it is extremely important.
    A number of weeks ago this committee convened a hearing on 
the condition and circumstance of Native American elders and I 
remarked at the time that we often get caught up in the furor 
of the day with very high profile issues like trust fund 
reform, housing, education, and gaming. As a committee and as a 
Nation, we have to step back once in a while and take stock of 
things that are really important and worth talking about and 
fighting for. Elder health care is one of those issues and 
making sure that our Indian kids get the chance to improve 
themselves, their tribe and their country is also one of those 
issues.
    Many of us who come from Indian backgrounds suffer the same 
problems such as dysfunctional homes and troubled lifestyles as 
youngsters. In my day, like many young kids of mixed blood 
ancestry, I was a bona fide, honest-to-God juvenile delinquent. 
Some people say I haven't grown out of that being here in the 
Senate but I'm still working on it.
    Indian youngsters today face many of the same problems I 
and many in my age group did, family alcohol and substance 
abuse, joblessness and all too often a feeling of hopelessness.
    There are also new problems facing Indian youngsters today. 
Gangs are growing where tribes and family once ruled and like 
all American kids they are not getting enough exercise, often 
have poor diets, become overweight too soon, and for a 
population that suffers from diabetes the way we do, obesity is 
an alarm bell which should certainly prompt us to act.
    There always seem to be Federal responses to the problems 
we face in America but in my mind, they are not always 
effective. I believe much of the responsibility for effectively 
answering these problems lies with the parents and families of 
American Indians themselves, with the private and nonprofit 
world and with the individuals themselves. The decisions we 
make as young people can determine how we live the rest of our 
lives and those decisions also determine whether we will even 
have a life to live.
    I want to thank the witnesses for appearing today. Our 
first panel will be John P. Walters, Director, Office of 
National Drug Control Policy and Neal McCaleb, Assistant 
Secretary, Indian Affairs. We will go ahead and start with Mr. 
Walters who I have worked with a number of times through the 
Treasury Subcommittee of Appropriations, on while I serve.

STATEMENT OF JOHN P. WALTERS, DIRECTOR, OFFICE OF NATIONAL DRUG 
                         CONTROL POLICY

    Mr. Walters. Thank you for your leadership here and on the 
issue of drugs. I've been in office less than 8 months and I 
don't think there is another member of Congress I've had a 
chance to talk with more. I appreciate your energy, your effort 
and your attention because I know it is a busy schedule you 
have.
    I would ask my prepared statement be entered in the record 
at this point.
    Senator Campbell. Without objection.
    Mr. Walters. I'll just offer a summary and be guided by the 
issues you want to followup.
    I'm going to discuss the Youth Antidrug Media Campaign and 
the Native American ads we have developed. The Campaign, as you 
know, is a comprehensive public health communications campaign 
designed to help prevent and reduce youth use of illicit drugs. 
The Campaign uses multimedia advertising and public 
communications strategies to promote anti-drug attitudes and 
behavior. It is one of the most powerful tools we believe we 
have to support the President's national drug control strategy, 
and makes a significant contribution to our goal of stopping 
drug use before it starts.
    The Campaign is particularly relevant to today's 
discussions of American Indian youth because of its 
considerable multi-cultural outreach effort. For each year of 
the past 3 years, the Campaign has delivered more than $30 
million worth of drug prevention messages that are tailored to 
reach the country's African-American, Asian, Pacific Islander, 
American Indian, and Hispanic communities. The media campaign 
has invested more than $5 million in designing, developing and 
placing the Federal Government's first ever antidrug 
television, radio and print advertising specifically tailored 
to reach American Indian elders, parents, and youth.
    These ads are a culmination of 2 years of research to gain 
a detailed understanding of the pro and antidrug attitudes 
among American Indian youth and adults and to gain cultural 
insights that would aid in the development of antidrug messages 
and community outreach efforts.
    Beginning in the spring of 2000, the Campaign conducted 46 
focus groups in urban and rural venues. Some of the comments 
from the focus groups were many parents were aware that their 
children are being raised in a world different from the one 
they inhabited as young people. They acknowledge that their 
kids face problems specific to growing up American Indian, 
including increased exposure to drug and alcohol abuse, racism 
and violence and they are unsure how to parent effectively 
without the guidance of traditional ways.
    American Indians spoke of the negative portrayal of the 
people in the general media, some of which is unintended. They 
felt these misrepresentations in popular culture stigmatize 
them as a community and strongly suggest that any anti-drug 
advertising depict communities and families in a positive way. 
Such insight became the foundation for the Campaign's first and 
ever ads for American Indians.
    American Indian youth emphasize the importance of the role 
that elders play in their lives, grandparents were especially 
important as they are often responsible for passing on culture, 
language, stories and ceremonies. For some, they provide 
safety, security, and continuity if parents are dealing with 
their own substance abuse problems.
    Our current advertising consists of print, radio and two 
television executions entitled, ``The Promise'' and 
``Adventure'' which are currently running in television markets 
with a large American Indian viewership and are also in 
American Indian publications and American Indian radio 
stations. The new messages, even more than before, pay homage 
to traditional cultures and values modeling healthy, antidrug 
attitudes and behaviors. You have two examples of the print ads 
in the packet I provided with my testimony. I'd like to show 
you the TV ads and one ad that is designed to help enlist 
community coalitions that has added dimensions of various 
different cultural ethnic content.
    [Viewing of ads.]
    Mr. Walters. I view this, having come to the office when 
this process was under production and some of it was already 
executed, as an effort by us to look at the nature of the drug 
problem in this country and to see how specific populations at 
higher than average risk that may need tailored messages as 
well as programs specifically designed to provide resources 
that we provide broadly to the needs in those circumstances and 
to see if we can we do that effectively. I certainly would not 
claim to be an expert on these issues and I have begun the 
process of meeting with Native American leaders as well as 
others around the country as we review the drug control 
policies and programs of the Government, with people in this 
room, we have worked with the Bureau of Indian Affairs and 
others for suggestions, comments, even criticisms of what we 
are doing now are more than welcome from where I sit because we 
want to get this right. I think this can be a valuable and 
important tool in getting messages that maybe for the general 
population will not work in specific populations that we need 
to reach and have an obligation to reach.
    We're at the beginning and while this is new and goes 
further than the Federal Government has gone in this area in 
anti-drug advertising before, I by no means think we are 
entirely where we want to be.
    I would also be remiss if I didn't admit candidly that the 
efforts to currently appropriate this money, especially in the 
bill that came from the House, would involve earmarks that 
would simply not allow us to do this kind of advertising 
because it would force us to drive the bulk of the program 
money into running the more broad audience advertising. Some of 
the things like the segmented parts of the program would not be 
possible under the earmarks in the House appropriation at the 
current time.
    I would ask to the extent you and your colleagues feel it 
is appropriate, if we could remove those earmarks, it would 
allow us to continue this important work at whatever level of 
appropriation is finally decided.
    [Prepared statement of Mr. Walters appears in appendix.]
    Senator Campbell. Did I understand you to say there were 
earmarks in the House bill that do not allow you to specialize 
your ads like this one?
    Mr. Walters. Yes; the money that this program has used to 
develop these specialized ads is in addition to the, we're 
using it as a portion of the money used to run the general 
public ads as well as the evaluation and administration of the 
program. Our estimate of the current earmark in the House 
appropriations bill would require us to maintain the 
administration of the buy for the large general advertising 
ads, plus the evaluation mandate and then sets a $150 million 
ceiling for what must be used by advertising would not give us 
the ability to do segmented buys in this way.
    I'm not trying to hold the Washington Monument hostage 
here, but I'm telling you that the effort there is potentially 
to say we ought to run more general purpose ads with more of 
the money. We think we're getting a good mix and this is a 
balanced and appropriate investment, although I recognize 
regional people can differ about how to balance it.
    I have provided in the back of my testimony graphic 
evidence of what we see as the disproportionate impact of drug 
use in different parts of the American population. We want to 
reach those people that are at risk that may not be reached 
when we look at it with general purpose advertising as 
effectively as we could. We think this investment of a small 
amount of the dollars to reach special populations is not only 
appropriate but necessary to do what we want to do. I want to 
preserve it so I regret the House made its decision. I hope 
that when Congress finally acts, we'll be able to preserve this 
and move on.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Walters appears in appendix.]
    Senator Campbell. Assistant Secretary McCaleb, please go 
ahead.
    I might tell the panels they tell us we have two votes 
scheduled at 2:50 p.m., which doesn't give a lot of time. 
Otherwise, we're going to have to recess and come back after 
about one-half hour or 40 minutes. I don't think anyone wants 
to do that. So it might serve us all well if we can abbreviate 
our testimony.

  STATEMENT OF HON. NEAL A. McCALEB, ASSISTANT SECRETARY FOR 
           INDIAN AFFAIRS, DEPARTMENT OF THE INTERIOR

    Mr. McCaleb. Message received and understood, Mr. Chairman. 
I will paraphrase my testimony and ask that the testimony as 
submitted be incorporated in the record.
    Senator Campbell. Without objection.
    Mr. McCaleb. I am delighted to be here today to speak on a 
subject that is important to all of us and our future and that 
is Native American youth, their activities and their future.
    The problems encountered by Native American youth as they 
grow up on reservations clearly have to do with the prevalence 
of alcoholism and substance abuse, and the consequent social 
dysfunctions that derive or are created by substance abuse. 
These problems, in my opinion, are a result of sustained 
economic deprivation and the hopelessness of having little 
expectation of having a career or meaningful employment on the 
reservation.
    These are long haul solutions, the creation of economic 
opportunity has been something I've heard about for the 35 
years that I have been involved in Indian affairs, so there is 
no revelation here. We are doing some things we hope will make 
a meaningful difference in a fairly short period of time such 
an economic summit we are sponsoring this fall to focus 
attention on the opportunities and mechanisms for business 
development on the reservations.
    We need to be doing some things in the immediate short term 
that will have long term effects. One of the things that I 
think the Bureau of Indian Affairs has earned bragging 
privileges about, not because of me but because this program 
has been underway since the early 1990's, is our Family and 
Child Education Program. It is a unique program that provides 
family literacy services to American Indian parents and their 
children from birth through the third grade. It is an early 
childhood development program that strives to involve the 
parents with their child in both classroom situations and in 
home situations because the first teachers the child knows in 
their most formative years are their parents. By the time they 
are 4 years old, 80 percent of their cognitive or brain 
capability is formed before they ever walk through the doors of 
a school building.
    In this program, they come through the doors of the school 
building in their mother's or father's arms and they spend time 
together. The program has proven very effective. It started out 
with a pilot program in 1991 with only 6 funded schools; we now 
have 32 programs and beginning the school year 2003-04, we will 
have 39 programs which is still not adequate for all 180 Bureau 
operated schools. We think we're getting good results from the 
program, not only for the children but for the parents because 
the parents are having their own self-image enhanced. In many 
cases, it is changing lives in terms of the way they perceive 
themselves and their behavior, especially as it relates to 
substance abuse. They are developing a real sense of parent 
responsibility to these youngsters that transcends their 
perception of their problems and desires.
    I recently visited a FACE program in Arizona. It was a very 
compelling scene, moms, dads, grandparents, and youngsters of 
all ages from birth to the first grade were there together at 
the school. You could tell the kids were buying into it and 
that the parents were proud of themselves. I talked to one 
young man who had his first full-time continuous job in his 
life and attributed that change to the literacy skills he 
learned in the FACE Program. He was excited about it and 
obviously an advocate for it.
    As a direct result of participation in the program, we have 
1,500 parents who have gained job skills that resulted in 
employment; 600 have completed their GED or gained their high 
school diploma; 60 percent of the program adults improve their 
reading and math skills; 91 percent of the parents report 
reading to their child every day.
    I have with me today Bill Mehojah, who is the director of 
our Office of Indian Education Programs; he is something of an 
expert on this and during the question and answer period, Bill 
may be a more useful respondent to your questions than I. I am 
a convert on the FACE Program and I think it truly is a program 
that is changing lives in Indian country. I am so pleased the 
Bureau of Indian Affairs has taken the lead on this.
    That is not to say that we don't need to do things in the 
full span of youthful development. One of the things we prize 
that is not done by the Bureau but is done by private parties 
who we try to leverage or partner with is the work done by J.R. 
Cook and the Unity Program. I've known J.R. for these 30 years 
and watched him work with great determination and tenacity in 
this area with ever increasing success. Dan Lewis will talk to 
you about the Boys and Girls Clubs. We are great advocates of 
that. We are doing five pilot projects with the Boys and Girls 
Clubs on Indian reservations for Indian youngsters in school.
    I hope that through these efforts, there will be an 
opportunity for self-realization of an individual's self 
potential as it develops within the cultural influence of the 
Indian community, that the social dysfunction and dependency 
will diminish, and that our Indian youth will experience a new 
and brighter future.
    Thank you.
    [Prepared statement of Mr. McCaleb appears in appendix.]
    Senator Campbell. Thank you.
    The youngsters have the help of a lot of good people and 
good programs which have come a long way but certainly you 
still have a long way to go. I know they face some cultural 
differences. Mr. Walters is involved with trying to reduce drug 
use among teenagers. As an example of how Indian kids can 
sometimes get caught in a cultural crossfire, most of them 
recognize what drugs are, some are involved in things like 
paint, glue and hardware supplies, oven cleaner, that kind of 
stuff which may not come under the heading of drugs but still 
blows their minds.
    The other problem culturally is I think many of them have 
parents or relatives, grandfathers or someone who belong to the 
Native American church which uses peyote as you know, not 
called a drug in the Indian community, but ``medicine''. If you 
talk about it in the outside community, you call it a 
hallucinogen. I think things like that, the cultural crossfire, 
creates some problems too.
    Maybe the proximity to urban areas too. I know there has 
been an increase of gang activity with those on reservations 
close to big urban areas. Phoenix is an example where the ones 
further out away from big metropolitan areas, the gang movement 
doesn't seem to seep out quite as fast, although I'm sure it is 
there too.
    Mr. Walters, I've always been a big believer in doing 
things with tribal consultation. When you have been dealing 
with tribal communities, were there any ideas presented that 
helped you in developing this program or addressing drug 
problems with youngsters on the reservations?
    Mr. Walters. The ads that I showed you were in fairly 
advanced stages when I took office, so the conversations that I 
have had with Native American leaders which will continue this 
year, I'm going to meet with the people associated with White 
Bison in the coming weeks which works on recovery as you no 
doubt know, as well as treatment. What I've asked them to do is 
to educate me about the contours of the problem as I do in 
other areas when I travel around the country looking at how 
these work, but particularly because I don't have as much 
personal experience and in addition, how the programs we 
provide work. I think the keys are that for a number of these 
communities and others, they are not connected to some of the 
usual distribution sources for Government resources or even 
some of the partnerships the Government makes with non-
government agencies because they don't have the same presence 
in Indian country. It varies if they are closer to metropolitan 
areas, there is overlap and so what we have tried to do is 
begin a conversation. In some places, these are working. I 
don't mean to make it all sound negative, but other places we 
want to drive these resources where they can be used.
    As you know, across the board, largely the Federal 
Government in these areas provides resources. Other people do 
the work. I try to say thank you when I'm out there and 
encourage others to. What we accomplish is entirely dependent 
on the effectiveness of the people who do the work and whether 
our contribution is effective depends on whether it gets there 
and whether it's in a form that is usable to them.
    I think some cases, particularly in the area of drug 
treatment and support for recovery, in addition to the large 
support for prevention, we're looking at how we can deliver 
these resources more effectively. Nationally, on the drug 
treatment front, the President is committed to spend an 
additional $1.6 billion on Federal treatment spending. We want 
to try to provide that where the need is and we have a large 
block grant program. In some places, that is working very well. 
We are also trying to use a targeted capacity expansion program 
that allows us to look at places where there is a particular 
need and driver resources there where there is a plan.
    Senator Campbell. Have you given block grants to Indian 
tribes?
    Mr. Walters. I believe most of the money in this regard 
goes to through the Bureau of Indian Affairs and not separately 
although I presume some State agencies do provide assistance 
that comes from the block grant but I don't have the 
information.
    Senator Campbell. If you could find that out and share it 
with the committee, I'd appreciate it.
    How has this media campaign been received on the 
reservations? Have you been able to track it or evaluate it?
    Mr. Walters. These ads were just released, at a center in 
Los Angeles with Native Americans. The individual response was 
very positive. People were very happy to see this problem was 
being addressed and the content seemed to be something they 
found useful and acceptable. We want to evaluate that because 
one of the problems is how do we cost effectively create both 
content and deliver it in areas where we know one size doesn't 
fit all even though we're trying to deal with segments of the 
population. I'm very concerned as we do these in sub 
populations that they are done in a way that has a positive 
effect.
    We will not have the same kind of evaluation of these 
segmented parts of the campaign that we do for the overall 
campaign you are familiar with because it is simply not cost 
effective to run the expensive evaluation mechanism in these. 
We are depending on feedback from the viewers on a more general 
basis, we'll also try to bring in some of the leaders in 
addition to the ones I see and get some sense of what they 
think is happening and how we can go from here to capitalize on 
what is good.
    Senator Campbell. I understand it will be difficult to 
measure something that doesn't happen. If a youngster does not 
do drugs because he was influenced by this kind of media, it 
might be difficult to measure he didn't do it because he saw it 
in this media but hopefully it will do some good.
    Mr. McCaleb, you mentioned the FACE program which I am very 
supportive of. Has there been any indication that program has 
had a positive impact on the issues of FACE?
    Mr. McCaleb. Yes; there has been. It's anecdotal at this 
point because the programs started in 1991 with only six 
schools and next year we will have 39 schools. The anecdote I 
participated in was in New Mexico at a Navajo school, which was 
very impressive. The comments I got from the parents was the 
level of commitment and excitement they had and it was making 
them better parents, changing their behavior. That has to 
accrue, those kinds of contacts, that kind of relationship, 
reading every day to a child, I doubt there are many of us in 
this room that can say they read every day to one of their 
youngsters. That is so important.
    Bill, do you have any quantitative information you would 
like to add to that?

STATEMENT OF BILL MEHOJAH, DIRECTOR, OFFICE OF INDIAN EDUCATION 
               PROGRAMS, BUREAU OF INDIAN AFFAIRS

    Mr. Mehojah. We've evaluated the program since its 
inception 11 years ago and we have a lot of data that 
demonstrates the program does work and it is effective. 
Children who enter school are ready for school, they do better 
in math and reading in their standardized achievement tests, 
and they remain in school. One of the things we are really 
focusing on is reading and making sure our kids are proficient 
in reading and literacy by the end of the third grade. That 
supports the goal we are trying to attain.
    The other thing we know is that parents who come out of the 
Family and Child Education Program are much more involved in 
meaningful ways in the school. They are involved with parent/
teacher conferences, they show up for them, they are asking 
questions about what their children are learning, if they are 
learning, they are asking about homework assignments, so they 
are actively involved with the school and the education of 
their children.
    We have a lot of data. In fact the Goodling Institute at 
Penn State has approached us about doing a research study on 
our program because it is one of the most comprehensive family 
literacy programs in America.
    Senator Campbell. Certainly it's beneficial.
    I think I will submit the rest of my questions in writing 
to you. I have two or three more but in the interest of time, 
we'll go on to the second panel. Thank you for appearing.
    The second panel will be Dr. Vincent Biggs of the American 
Academy of Pediatrics; Dan Lewis, one of our former staffers 
here with the committee years ago, of the Boys and Girls club 
of Scottsdale; J.R. Cook, executive director, United National 
Indian Tribal Youth, Inc.; and Nick Lowry, Native Visions, Inc.
    If you would give us your written testimony and abbreviate 
your comments, I would appreciate it.
    We will start with Mr. Biggs.

   STATEMENT OF VINCENT M. BIGGS, M.D., AMERICAN ACADEMY OF 
                           PEDIATRICS

    Mr. Biggs. My name is Vinny Biggs. I am a pediatrician from 
Amherst, MA. I've been working with American Indian and Alaska 
Native issues for nearly the last 10 years. I worked on the 
Navajo Reservation at the Northern Navajo Medical Center 
clinically as a general pediatrician and I currently serve on 
the American Academy of Pediatrics Committee on Native American 
Child Health.
    On behalf of the Academy I am honored to be here to discuss 
the serious health challenges facing Native children and youth.
    For the last 3 decades, the Academy has worked on behalf of 
children and youth which has included efforts to improve the 
health and development of Indian children. Over the course of 
this time, the challenges that face this population have 
significantly changed. Today I am going to focus on three of 
the most serious challenges, health disparities and unmet 
health care needs, unintentional injuries and death and Type II 
diabetes.
    Today more than one-third of the American Indian and Alaska 
Native population is under the age of 15. In some tribes, this 
is nearly one-half of the population. There are twice as many 
5- to 14-year-olds in this population than in the white 
population. The birth rate is 63 percent higher than the birth 
rate for all United States races. Clearly this is a population 
of vulnerable children that continues to grow.
    While the general health status of these children is far 
better than their parents and grandparents, significant health 
disparities continue to affect these children and their 
families. The current infant mortality rate for Indian children 
is 22 percent higher than the general population and 60 percent 
higher than whites. More than twice as many of these children 
die from SIDS than other United States races despite a growing 
understanding of SIDS and how to prevent it. Overall, Indian 
children and youth are more than twice as likely to die in 
their first 4 years than their non-Indian peers. This statistic 
remains true through the age of 24.
    The poor health status of American Indian children is 
related to some degree to the extreme poverty in its 
population. As I am sure this committee knows, more than 40 
percent of these children live in households with incomes below 
the poverty level as compared to 20 percent of children other 
races.
    The serious health problems associated with poverty and 
rural isolation are compounded in the Native community by 
limited access to pediatric health care. Over the last decade 
the average number of well child visits which are the visits 
where children are assessed for their physical, developmental 
and mental health has dropped by 35 percent. Outdated 
facilities and persistent vacancies for health care providers 
within the Indian Health Service also limit an Indian child's 
access to pediatric care. Recent data from the Indian Health 
Service shows that vacancy rates for dentists are 25 percent, 
for nurses, 15 percent and for physicians, 10 percent. The 
average Indian Health Service facility is three times older 
than other facilities serving other populations. It is 
obviously difficult to meet the need given such disparities.
    These children living in urban areas face similar 
challenges accessing pediatric care. These children often 
receive their care through urban Indian health programs. These 
programs are funded in part by the Indian Health Service and 
are dependent upon Medicaid reimbursement to function. While 
most States currently receive 100 percent of FMAP for these 
services that are provided at Indian Health Service and tribal 
facilities, at the Urban Indian Health programs they receive 
their regular FMAP rates, which is less. As a result, the 
programs that serve these children receive lower reimbursements 
which limits their opportunity to provide services.
    The Academy calls on Congress to follow this committee's 
lead in ensuring that all Indian children and youth have timely 
access to needed pediatric health care services. We join with 
the Friends of Indian Health in requesting at least $3.09 
billion for Indian Health Service for the fiscal year 2003 and 
urge swift passage of legislation to eliminate the FMAP 
disparity that threatens the effectiveness of urban Indian 
health programs.
    Another significant challenge that I'd like to talk about 
is unintentional injury and death. The data tells us that 
Indian children experience the highest rates of injury, 
mortality and morbidity of all United States ethnic groups. The 
overall injury death rate is nearly twice that of children of 
the general population. Indian children are three times more 
likely to die as a result of motor vehicle occupant injuries 
than white or black children and fire and burn injuries cause 
death of nearly three times more of these children and youth 
than among the white population.
    Many factors contribute to these alarming statistics which 
may include poverty, substandard housing, limited access to 
emergency care, alcohol abuse and rural residences. While it is 
clear that Native children have not benefited to the same 
degree from injury prevention techniques as other children, we 
know that carefully crafted injury prevention programs work. 
Examples of this are the Alaska program to promote winter coats 
with flotation devices to prevent drowning or the Navajo 
Occupant Safety Program to increase seatbelt use.
    In order to combat the high rate of injury, morbidity and 
mortality among Native children and youth the Academy urges 
continued support for the implementation and expansion of 
broad-based, injury prevention programs for this population. 
The Academy also supports the development of programs to 
provide incentives to Native communities to provide the use of 
well established safety mechanisms such as seatbelts and child 
restraints. Congress' continued support for the Indian Health 
Service Health Promotion/Disease Prevention Program as another 
essential tool.
    The last topic I'd like to touch on is Type II diabetes, 
which I think the committee is very familiar and has recently 
emerged as a significant health threat to Indian children and 
youth.
    Today, the prevalence of Type II diabetes among Native 
children is higher than any other ethnic group. Indian Health 
Service data indicate the prevalence of diagnosed diabetes 
among 15- to 19-year-olds has increased 54 percent since 1996, 
which is a dramatic and overwhelming increase.
    For pediatric patients, Type II diabetes means that they 
will have likely earlier onset of heart disease, vision 
impairment, renal disease, limb amputation. Children and 
adolescence with chronic conditions such as Type II diabetes 
are also at higher risk for depression and behavioral disorders 
which will make it more difficult to take care of these 
patients.
    Given the serious and lifelong health consequences of Type 
II diabetes, timely medical intervention and research are 
critical to the future of health of Indian children and youth. 
As part of a coordinated, comprehensive effort to reduce Type 
II diabetes among Indian children and youth, the Academy 
recommends continued Federal support for community-based, 
multidisciplinary Native diabetes prevention and treatment 
programs. These efforts should include proven strategies to 
help overcome the barriers unique to these communities, 
including the use of trained professional interpreters, 
cultural competency training, and community member 
participation in the design of these clinical services. 
Continued support is also needed for the Indian Health 
Services' diabetes programs.
    Despite the notable achievements in many areas, significant 
disparities still exist for Native children and youth and 
tremendous gaps in health care, access, delivery and research 
clearly will need to be bridged before disparities can be 
eliminated.
    On behalf of the Academy, I encourage Congress to remember 
the health needs of these children in your deliberations both 
in securing adequate support for the Indian Health Service and 
in developing public health campaigns for the U.S. population. 
Your dedication to the Indian children and their families is 
commendable and we look forward to working with you in the 
future.
    Prepared statement of Dr. Biggs appears in appendix.]
    Senator Campbell. Those are terrible numbers. I thought I 
knew most of them but you spoke to a number of them I did not 
know were that bad in some of those areas. One you didn't 
mention was fetal alcohol syndrome which is terrible on 
reservations also, as you know.
    We'll go on to Mr. Cook.

  STATEMENT OF J.R. COOK, EXECUTIVE DIRECTOR, UNITED NATIONAL 
                   INDIAN TRIBAL YOUTH, INC.

    Mr. Cook. I'm privileged to be invited to represent United 
National Indian Tribal Youth Inc., also known as UNITY. The 
heart of UNITY is its affiliated youth councils. The UNITY 
network currently consists of 234 affiliated youth councils in 
34 States. Today, more than 60 tribes are sponsoring youth 
councils.
    UNITY does not attempt to speak for the youth but instead 
to listen to the youth. We think youth have many of the answers 
that need to be heard. One of UNITY's primary goals is for 
youth to have a voice at every level, locally, State and 
nationally and even internationally.
    Through a process involving members of the UNITY affiliated 
youth councils recently, a survey was conducted where youth 
identified and prioritized their concerns and issues. I will 
list them: No. 1, alcohol, drug and substance abuse; No. 2, 
teen pregnancy, sexuality, STDs, HIV/AIDS; No. 3, education 
dropout rate; No. 4, peer pressure; No. 5, cultural 
preservation; No. 6, diabetes and other health issues; No. 7, 
gangs and crime; No. 8, spirituality; No. 9, strengthening 
Native families; No. 10, a tie between suicide and the lack of 
physical activity and poor nutrition.
    At the recent National UNITY Conference in Palm Springs 
where more than 1,400 participated, action planning sessions 
were held to see what the youth would recommend to resolve the 
problems. These recommendations will be posted on our website. 
Their recommendations pertain to how youth can affect change in 
their communities.
    I would like to recognize some Federal agencies for their 
support to help youth in resolving the problems. The 
Administration for Native Americans [ANA] has been providing 
grants to UNITY through competitive competition for 14 years. 
Our current project is ``Linking Native Youth'' utilizes modern 
technology to connect youth from the most remote areas to share 
and exchange ideas, help resolve problems and mainly to get in 
touch. I know ANA is short of staff, they serve more than 400 
grantees and have a staff of 7.
    Indian Health Service has been very supportive for a number 
of years. It makes sense because so many of the youth concerns 
are health related that IHS should be a partner. We appreciate 
their support.
    The Office of Alcohol and Substance Abuse Prevention within 
the Department of the Interior is partnering with UNITY to 
conduct a Substance Abuse Prevention Among Indian Youth Summit. 
That will be done in conjunction with the Healing Our Spirit 
Worldwide Conference in Albuquerque in September.
    The Robert Wood Johnson Foundation has provided UNITY with 
funding for an exciting project called ``Celebrate Fitness, 
Tribal Youth Lead Promotion of Active Living.'' This is unique 
because we're asking the youth to be the leaders in their 
respective communities to promote physical activity and improve 
nutritional practices.
    Nine youth councils from seven States are working to 
improve health and we are asking youth to be the catalyst to 
generate, stimulate, maintain interest and to be the conduit to 
reach out to all age groups from Head Start to senior citizens. 
This is a new approach.
    We have several recommendations to offer to the committee 
for consideration. Anything that can be done to keep schools, 
tribal facilities, and community centers open after school and 
on weekends will allow youths to participate in constructive 
activities. Youths have a lot of energy and enthusiasm and they 
are going to be doing something with their time. If we don't 
provide them with some constructive activities, then how can we 
criticize them for getting involved in negative, destructive 
activities?
    More funding is needed for Native youth opportunities. 
Collaboration is a must. I recommend reconsideration of the 
executive order that was proposed by Indian Health Service and 
the Department of Health and Human Services during the previous 
Administration which proposed making it simpler for tribes and 
others to apply for funding and not have to go to every agency 
and sometimes different applications within one department to 
look for funding; simplify through some type of collaborative 
process.
    Without reducing funds available to tribes and making 
additional funds available to support Native youth, we would 
ask that you consider adjusting wording in some of the 
legislation. Very few agencies at the moment make it possible 
for regional, national non-profit organizations to apply for 
funding. I think it is very important that we have such 
organizations to help.
    We think there should be a hearing established for youth to 
be the witnesses and would invite the committee to consider at 
our mid-year UNITY meeting, in this area in February, to work 
with the committee and invite a cross section of youth so 
different agencies and the committee could hear them.
    I would like to introduce Teresa Dorsett who accompanied me 
with a nod. She might just make a couple of remarks. I think we 
need to hear from young women and she is submitting some 
written testimony. Could she?
    [Prepared statement of Mr. Cook appears in appendix.]
    Senator Campbell. Sure, that would be fine. Could you 
identify yourself for the record.

STATEMENT OF TERESA DORSETT, MEMBER, CHEYENNE-ARAPAHO TRIBES OF 
                            OKLAHOMA

    Ms. Dorsett. My name is Teresa Dorsett. I'm a member of a 
Oklahoma tribe. I am working part-time with UNITY while 
pursuing a second Masters' Degree from the University of 
Oklahoma.
    I want to thank J.R. Cook and the committee for this 
opportunity to share with you briefly some of my concerns.
    Without reading this and trying to make it brief, I feel 
the biggest problem that Native youth face and Indian people in 
general is the mental health issues. I don't feel like we are 
addressing those to the extent that needs to be done. I feel 
all the other problems, the education, the health issues, the 
substance abuse, the economic issues, tribal government issues 
stem from a very unhealthy mental state of Native people.
    In doing some research prior to coming here, I did find 
some research that has been done by the American Indian, Alaska 
Native Mental Health Research Program. In reading that, I found 
a term I felt kind of summed it up. They use historical, 
unresolved grief as a term of kind of why we're where we are 
today.
    Spiritually, mentally, emotionally, our youth are 
struggling; our Native people are struggling; our tribal 
communities are struggling; and I see a serious need, 
especially in tribal communities and even among the Cheyenne 
Arapaho people for mental health facilities.
    I know Indian Health Service provides mental health 
services but I don't think it begins to address the need. I 
know we have the substance abuse campaigns but why do we have a 
problem with substance abuse? Again, I feel it is because of 
the state of the mental health that I don't feel is being 
addressed.
    Another area of concern is education. I am in education and 
served as the tribe's education director of the last 6 years 
and there are issues involving Native youth and public school 
systems. I know we can address this again and again but the 
teachers and communities, and school administrations lack 
cultural sensitivity. I don't want to throw out the terms we 
have been throwing out for years, but that's basically what it 
is.
    You used the term earlier a cultural crisis type deal and 
again, it's directly involved with the mental health issues of 
Native people. They have lost their identity. I don't think I 
have to tell everyone the history of what has happened to our 
Native people but we're still dealing with that. That on top of 
putting our Native youth in public school systems that are 
insensitive to their needs, and in my opinion, that are not 
looking out for Native youth or minority children in general, 
but that is going to cause problems with our Native youth, and 
lead to the high drop out rate and all the other problems we 
are discussing with Native youth.
    As J.R. mentioned, we do need more programs for Native 
youth to participate in positive activities. In Cheyenne-
Arapaho country, we lack opportunities, facilities, and as we 
all know sports and athletics is sometimes what keeps Indian 
students going through school. We lack opportunities for them 
to participate in summer programs. After school programs are 
often race related in my opinion and aren't afforded as many 
opportunities as non-Indian students.
    Last, the lack of cultural identity among Native youth and 
the lack of positive relationships of tribal youth or tribal 
organizations and governments are significant problems. Our 
youth must begin to identify, learn about and engage in 
activities related to their culture. Our youth are not provided 
these opportunities and learning experiences.
    I feel public school systems should have the responsibility 
of teaching our Native youth about their culture, history, 
tribal governments, et cetera because as it is, the moment they 
either drop out of school or high school, they come to the 
tribe for a job. That is when they begin to learn who they are 
and their tribal governments. In my opinion, that is too late.
    I address each of these issues in more detail in the 
written testimony that I will be submitting through the 
electronic mail. I would hope that sometime through this 
process, I would love to discuss each of these in detail with 
anyone that is interested.
    Senator Campbell. Thank you. You are a teacher by 
profession?
    Ms. Dorsett. No; I am the tribe's education director. I 
oversee the Federal programs which I could talk about tribal 
education department issues right now but I won't go there.
    Senator Campbell. You might be interested in looking at a 
bill that this committee just reported out, a bill I 
introduced, S. 210 which authorizes tribes to integrate 
alcohol, drug abuse, and mental health services so they can 
streamline the process and not duplicate efforts and letting a 
lot of people fall through the cracks.
    It hasn't passed the Senate and we may run out of time 
since we only have a few more weeks before we're out. We'll be 
back in a few weeks and then we adjourn for the year but it is 
something that is very important to me. You might take a look 
at that. If we don't get it through this year, I'm going to 
reintroduce it next year and try and go on with it.
    You mentioned the importance of schools having some 
cultural sensitivity programs. As many Indian kids and families 
as there are in Oklahoma, don't the public schools provided 
those kinds of programs?
    Ms. Dorsett. No.
    Senator Campbell. Even the ones that are near large Indian 
population bases?
    Ms. Dorsett. No; another issue which is addressed in the 
testimony is the teacher preparation programs in Oklahoma. To 
me it is common sense that if you're going to work with a large 
Native population, you should be prepared for that and our 
teachers aren't prepared for that. They are going into 
communities, specifically northwest Oklahoma because that is 
where I've worked the last 6 years, cultural sensitivity is not 
there.
    Senator Campbell. Don't the universities that train 
teachers offer programs in Indian cultural sensitivity?
    Ms. Dorsett. No; this October, I will be assuming duties as 
the president of the Oklahoma Council on Indian Education and 
that is one area that will be addressed. They are a State 
Indian education organization.
    Senator Campbell. Thank you. Perhaps I'll have some 
questions for you too if you will stay there a while.
    Why don't we go on to Nick Lowry, please?

            STATEMENT OF NICK LOWERY, NATIVE VISION

    Mr. Lowery. It is my impression that we are in a bit of a 
rush so I'll dispense with showing a video that we had. I don't 
believe we have time to show that. It is a video about Native 
Vision which is a program we started 7 years ago. The first 
year of that program, Mr. Chairman, you actually spoke on 
behalf of the concept behind Native Vision which was that 
sports and the mentor relationship of professional athletes is 
one way to access youth and help inspire them to think about 
their capacity for greatness.
    I wanted to thank you for helping us inaugurate that 
program 7 years ago. It has grown by leaps and bounds every 
year. Unfortunately, I don't believe we have time to show the 
video right now. In the interest of time I'll move on to my 
written testimony.
    Nine teenagers committed suicide on the White Mountain 
Apache Reservation last year out of a youth population of 
6,000. We've already heard some of the remarkable statistics. 
We are so aware of all these different subjects that are two to 
five times worse than urban conditions. One other statistic I 
might add is that alcohol related deaths of ages 15-24 is 17 
times higher than other United States races in general.
    I'd like to summarize my key points. Programs like Native 
Vision, like UNITY which I have a tremendous amount of respect 
for and which needs to continue to grow, and a new program 
called The Life Skills Center for Leadership are crucial to 
accelerating the initiation process of Native youth into adult 
roles serving their communities.
    TYouth empowerment must be raised to a wholly new level of 
importance. Tribal councils must incorporate youth programs 
into the very heart of tribal governance and culture. For 
example, the Gila River Youth Council, which is very much 
involved with UNITY, Harvard's 2002 Honoring Nation's High 
Honors awardee gives youth a permanent voice, a permanent 
office and 100 percent support from their tribal council. 
Nation Building for Native Youth, a program I've worked on for 
the past year in developing a curriculum for Native youth, and 
similar training programs are essential to closing the gap 
between the aspiration to lead and serve and the opportunity to 
do so.
    Last, one possible avenue for creating some funding will be 
this McCain Bayh Americorps bill which might provide the 
crucial investment in these new Native youth leadership and 
self governance programs. The 1 percent set aside for American 
Indians in Americorps could help inspire this timely new vision 
for Native youth.
    Seven years ago, I helped found Native Vision with Johns 
Hopkins for American Indian health and my friend, Clark Gaines, 
from the NFL Players Association. Johns Hopkins has spent 25 
years attacking the symptoms of ill health that we have heard 
about today on reservations from diabetes, meningitis, to 
teenage suicide which is becoming an epidemic in some places.
    Native Vision added a more positive focus of youth and 
sports and healthy family lifestyles, but while it has had 
success, focusing on symptoms and healthy youth and families is 
only part of the answer.
    Speaking of mental health, just as Freud helped us 
understand what the components were of mental ill health, 
Abraham Maslow, the father of modern psychology, helped us ask 
one more equally important question: What are the qualities of 
the high achieving individual? Mr. Chairman, we must ask this 
question now of our young people. What is your highest capacity 
for greatness? We must even shout it and then we must listen. 
We must finally give youth the training and the power to call 
attention to their own issues in their communities.
    Senator Campbell. I have to interrupt you because I'm 
fascinated with your comments. Some day we will also have to 
have a discussion about the use of Indian names for pro 
football since you used to play for the Chiefs but that is not 
in the purview of this hearing.
    That is the second call to vote which means I have 5 
minutes to get over there and then they close and we have two 
votes which means I'll be gone maybe 20 minutes or one-half 
hour. I don't want to hold up this hearing because I think it 
is extremely important to get all your comments on the record 
and I do have some questions.
    For the next few minutes until I can get back, I'll 
authorize our lead counsel, Paul Moorehead, to go ahead with 
the hearing if that is acceptable. Otherwise, you will have to 
wait here. Paul, if you'll take over, I'll be back as quickly 
as I can.
    Mr. Moorehead. Please continue, sir.
    Mr. Lowery. Native culture has much that we can learn from, 
such as the notion of the wholeness and the balance of health 
symbolized by the medicine wheel. We must now consider the 
symptoms of ill health and weigh them against a new paradigm: 
What is your capacity for a legacy of meaning and contribution. 
Then we must follow through with meaningful participation in 
revitalizing communities through programs such as Americorps 
and UNITY that place youth at the center of the community's 
decisionmaking life.
    At Gila River near Phoenix, AZ, the youth council has a 
permanent voice in the life of the council reporting twice a 
month with issues of their concern at all seven district 
meetings. Regular training, which actually is going on right 
now for their program at Gila River, allowing the youth to take 
real ownership in running programs is the essence of Gila 
River's true empowerment. In fact, the concept of youth 
empowerment, which I'm sure Mr. Lewis knows a lot about, is 
great rhetoric but rarely is followed through. Most adults do 
not equip their students with the skills to run their own 
program let alone have the opportunity.
    My friend J.R. Cook will tell you it is no coincidence that 
a few weeks ago when we were in Palm Springs for the UNITY 
conference, a number of the top national leaders for UNITY are 
from Gila River because they possess the confidence, the 
experience, the vision, the organizational skills and in short, 
the leadership.
    I'd like to leave you with a couple statistics. We took 
some surveys of the 500 youth that came to Native Vision this 
year. It would have been 800 but we had the worst forest fire 
in Arizona history 6 miles away so that hamstrung us a little 
bit.
    One of the interesting statistics is that only 2.3 percent 
of the 200 that filled out these surveys said they go to the 
community center after school. It seems to me some of the 
things Mr. Walters and Mr. McCaleb talked about the theme of 
the full community participating, whether it is the tribal 
council or the principals and the teachers, and indeed the Boys 
and Girls Clubs which have shown significant leadership on 
Indian reservations, we need to have much more coordination 
because obviously for many youth, highly motivated you, many do 
not recognize the community center as indeed the community 
center.
    Native American youth are taught too often that their 
problems are hopeless. They are so frequently approached by 
those outside and inside the reservation, well meaning as they 
might be who seek to help them with their so-called issues, 
that they begin to see themselves as problems. They see the 
reservation only as a source of despair and not of greatness 
and vibrant living traditions and culture.
    Profound new steps must be taken so that youth own their 
own future. Boys and Girls Clubs on the Gila River Reservation 
in Arizona, on Boys and Girls Clubs on the Wind River 
Reservation in Wyoming, YMCA's in Sioux country and other 
community centers throughout Indian country truly must become 
the centers of life on the reservation for our young people. 
This will only happen by raising the social value of youth and 
their initiation into an adult role in the community. It does 
make an immense difference, Mr. Chairman that a Senate 
committee takes the time to underscore this is a new, important 
priority.
    Professor Joe Kalt and Andrew Lee at the Harvard Project, 
whom I know you know quite well, have distilled five 
fundamental concepts that would be part of this program which I 
think underscore this empowerment. They have to do with: No. 1, 
sovereignty; No. 2, capable institutions of self governance; 
No. 3, cultural match, something Teresa talked about, having 
sensitivity that the match exists between the formal governing 
institutions and the informal traditions of our power is 
appropriately organized and exercised by a particular tribe: 
No. 4, strategic orientation, having a long term plan and 
vision; and No. 5, leadership, a set of persons able to 
articulate that vision, win support for that vision from the 
community, demonstrate public spirited behavior and inspire 
such behavior in others.
    Nation Building for Native Youth is the first attempt to 
transform the Harvard Project's mature nation building 
principles into lessons transparent for adolescents. Developed 
as a pilot curriculum at Harvard this past year and 
administered by my foundation with assistance from the Kellogg 
Foundation and the Pequot Tribe, it teaches self governance and 
leadership through a combination of trust building exercises, 
nation building principles such as those just mentioned, and 
mock tribal councils.
    In conclusion, Native youth are inundated by often well 
meaning but misdirected messages from community programs that 
aim to help them out with their problems. Youth grow up 
believing they are the problem and not the answer. The answer 
is staring at each one of us and the outstanding people like 
J.R. Cook, Mr. Lewis, Mr. Biggs, and Teresa who are here today 
that have spent any time working with youth. We have to give 
youth a taste of power and the insight into how to use it 
effectively. We must repair the immense tear in the social 
fabric in Indian country that represents the yawning gap 
between the ages 11 and 21 are the years that comprise coming 
into adulthood and by definition, into meaningful participation 
and leadership in the community.
    The single most effective way to develop a cycle that 
generates greater social capital is by engaging youth at the 
earliest age in the problem solving of its community by 
teaching involvement and service as the highest value. In so 
doing, an education system unleashes the imagination and energy 
of its true clients, its students.
    In those communities in Indian country where teenage 
suicide, substance abuse, illiteracy and apathy dance together 
in morbid fascination, there is only one answer. I challenge 
every tribal council in America to create within their own 
culture and community a meaningful, fully integrated role for 
its youth council.
    Thank you again, Mr. Chairman, for the opportunity to share 
these thoughts with you.
    [Prepared statement of Mr. Lowery appears in appendix.]
    Mr. Moorehead. Thank you, Mr. Lowery.
    Mr. Lewis, if you would like to proceed.

          STATEMENT OF DAN LEWIS, BOYS AND GIRLS CLUBS

    Mr. Lewis. It's a privilege to be back again and to focus 
on youth issues.
    I have the privilege of serving as chair of the Native 
Advisory Committee to Boys and Girls Clubs of America. Before I 
begin my testimony, I also want to acknowledge a fellow member 
of that committee, Gary Edwards, also employed full time with 
the U.S. Secret Service. He has been a great asset to that 
committee.
    Also in the room is Robert Calloway our senior vice 
president for Boys and Girls Clubs and Steve Salem, also of the 
same office.
    Let me begin by giving a brief overview of my testimony. I 
certainly agree with a number of the comments made here about 
the issues facing Native youth but certainly I think one of the 
issues or problems would be lack of a comprehensive, 
sustainable program that has local control. That has been 
highlighted in a number of different testimonies this morning.
    I never expected to see in the 8 years I've been involved 
with Boys and Girls Clubs the actual explosion of these clubs 
in Indian country which is testament to the fact that there was 
nothing there before for the kids to engage in; 8 years ago, 
there were only 12 clubs, today there are 120 with 26 in 
progress.
    The nice thing about the Boys and Girls Club is it provides 
those three critical factors of being comprehensive in terms of 
the programs it offers, focusing on sustainability both from a 
financial standpoint to make sure that these are not just 
around as long as a Federal grant is available but can be 
sustained through a combination of resources be they Federal, 
tribal, State, non-profit or private sector is really the only 
way to make those effective, and local control which was a 
critical factor as we started the program eight years ago that 
self determination be the way in which we deliver these 
programs to Indian country.
    The map I've prepared for the committee illustrates the 120 
clubs we have today and those are all based on each of those 
tribes electing to pursue a Boys and Girls Club, one or more, 
on their reservation. There are notable gaps. California, 
obviously, but as the word begins to spread of its 
effectiveness, I have no doubt that our new goal of 200 clubs 
by 2005 will be achieved.
    Second, comprehensive, a lot of times although they start 
out being well intentioned, the programs are not comprehensive 
and only focus perhaps on one aspect, athletics. That is fine 
if you enjoy athletics but if that is not your focus, and 
perhaps arts and crafts and computers, you're left out and you 
feel left out and that adds to some of the frustration our 
Native youth feel. That is why Boys and Girls Clubs want to 
focus on making it comprehensive so everyone is engaged and 
everyone feels empowered as Mr. Lowery said.
    I was meeting with the Bureau of Indian Affairs this 
morning and there on the table was a 2001 Youth Risk Behavior 
Survey published by the Bureau on their high school students. 
It lists a number of areas in which there is concern, violence 
on school property, sexual behavior, drug use, alcohol use, 
physical activity and so forth.
    Interestingly as I just looked at those contents, in every 
one of those areas, Boys and Girls Clubs offer a curriculum to 
address those situations but more important, I think we allow 
each of those clubs and each of the different tribal cultures 
to adapt our programs so they are more focused and get more 
involved in the community, the elders and the parents as well.
    I learned this morning of the FACE Program which sounds 
very interesting and am pleased that is being pushed by the 
Administration. As well intentioned as it is, the obvious 
concern is they are only reaching 30 schools. Yet the Bureau 
has well over 185 schools as you know, boarding, dormitory 
schools and so forth.
    Second, it goes up to age 8. If you're 9, 10, 11, and 12, 
you are left out again and what happens if you were not 
involved in that particular program? Boys and Girls Clubs 
again, we want to empower the students by ensuring that we 
provide those literacy type programs, computer skills and so 
forth. There are opportunities here that I see where we can be 
an extension of the FACE Program once those kids graduate from 
that particular curriculum.
    In addition, my friend J.R. Cook serving our teenage years 
is a very important program, it testifies to the depth of the 
councils around the country but also I think we can be a feeder 
to UNITY as well and have been in many cases, Gila River, Salt 
River are examples.
    There has to be, as I mentioned, in terms of 
sustainability, involvement by the tribe, involvement by the 
Federal Government, involvement by the private sector and local 
organizations and we are seeing that. I think that is critical 
to making sure we have a sustainable program.
    I know the committee, in other issues, has talked about 
consolidation. I would certainly agree there. Where we can 
consolidate programs so that tribes and other youth programs or 
Boys and Girls Clubs don't have to spend excessive amounts of 
time on paperwork and those types of issues, that would be 
critically important.
    Where consolidation is not possible, certainly strong 
language by the committee or the Senators on this committee to 
make sure our tribal communities are included in programs that 
go forward. Unfortunately and all too often the Congress waits 
until there has been some horrific incident within the Nation 
before they develop a comprehensive program. We don't really 
have that time to wait.
    I think of all the other tribes that don't have a youth 
program, don't have a Boys and Girls Club, are not part of 
UNITY, what are their kids doing. As I present this issue to 
tribes, the issue here as tribes are concerned, as this 
committee is concerned, is equally important in terms of 
sovereignty. As tribes face external threats to sovereignty, be 
it legislation or issues before the court, there are equally 
and perhaps even more dangerous issues of internal threats to 
sovereignty, the erosion of sovereignty which come through, 
tobacco use, alcohol use, and all these other matters we have 
talked about this morning.
    The difference is when external threats to sovereignty 
arise, tribes band together and have effectively fought off 
those issues they feel strongly about. The internal threats to 
sovereignty are different because it depends solely on that 
tribal community to face up to the issue and then to address 
it. If they don't, erosion as it occurs naturally, if something 
gives away, you can't repair what has been damaged, it is gone.
    So to our smaller tribal communities, our Alaska Native 
villages, and the Native Hawaiian homelands that we're reaching 
out to, those are absolutely critical aspects. I hope as we go 
forward the committee will keep those in mind, consolidation as 
well as a strong proponent of tribes being included in other 
national programs.
    Our Bureau of Indian Affairs program with the number of 
schools out there making these programs effective requires a 
facility where kids can really feel it's their own. The issue 
of not feeling a community center is their own as borne out by 
Mr. Lowery is exactly that. When an issue arises within a 
community, who gets kicked out first? It's the youth. So I 
think that is where the Boys and Girls Club has been so 
effective by ensuring we're meeting the needs of the age range 
between 5 and 18.
    Let me also mention that the issues J.R. pointed out, the 
recommendations of after school consolidation, direct funding 
and nonprofit issues, are all ones I thoroughly agree with.
    Again, I appreciate the committee's time on this issue and 
look forward to working with you to address these.
    [Prepared statement of Mr. Lewis appears in appendix.]
    Mr. Moorehead. Thank you, Mr. Lewis.
    As we wait for the vice chairman to return, maybe we could 
proceed with some of the questions he had for the panel.
    To Dr. Biggs, in his opening remarks, Senator Campbell 
expressed a concern with the increasing prevalence of diabetes 
in Native youth circles. That combined with increased obesity 
and related health issues causes him and the committee and the 
Congress generally to look for answers.
    One of the slow evolutions here is in the focus on 
prevention, not treatment. He, I think, would be interested in 
finding out what your estimation is of the largest contributing 
factors to the rise in diabetes and what suggestions the 
Academy may have to address those.
    Mr. Biggs. As you know, there is not a huge amount of data 
as relates to effective strategies to treat diabetes in 
children. There is a substantial amount of data that exists in 
adults. A lot of that data has been carried over in terms of 
treatment for children.
    Clearly it's been established that obesity and sedentary 
activities contribute to the onset of diabetes and programs 
that address those issues seem to be most effective. As noted 
the written testimony I supplied, the programs that seem to 
have been effective in the past or that have been used are 
multi-disciplinary and incorporate the community. They involve 
nutrition, the behavioral health providers as well as the 
clinical providers. I think the data from the pediatric age 
group is in evolution. We talked a bit about the funding for 
diabetes programs for Indian Health Service. Research has to be 
a piece of that funding and obviously that research needs to be 
culturally sensitive and appropriate. The tribes have to have 
some say in the process of that evolution so that data can be 
generated for Indian children so we can use the data as we go 
forward.
    Mr. Moorehead. In a related question, one of the phenomena 
that the tribes have related to this committee is that the 
programs and services are often disparate and uncoordinated 
which makes their ability to bring some discipline to them very 
difficult. Is that your experience across the Federal 
Government that the programs are often untied, nonintegrated 
and often don't know what each other are doing, for instance?
    Mr. Biggs. It's a difficult question to answer. I think 
when these programs are developed in different tribes, and 
there being over 500 tribes, they have to be very tribally 
specific. Because of that, the programs may be different and 
there may be a little less coordination that way.
    I believe making it tribally specific with tribal ownership 
is going to ultimately be more effective as I think most of the 
people at this table have alluded to.
    Mr. Moorehead. Mr. Cook, UNITY has worked to promote 
leadership skills among Indian youth. Do you have an indication 
for those young people who have gone through and participated 
in UNITY programs have gone on to leadership posts on tribal 
councils, in State government or the Federal Government?
    Mr. Cook. One of the alumni is chairman of the Aroostook 
Bank of Micmacs in Maine; another is vice chair of the Yavapai-
Apache Tribe in Camp Verde, AZ and several others are serving 
on councils. In addition to those types of roles, many have 
gone on to become professional men and women. Of our 10 member 
council of trustees, 5 are former UNITY members, a medical 
doctor, a communications expert, a youth program coordinator, 
two attorneys, and two of the current UNITY copresidents of the 
National UNITY Council serve as trustees. So 7 of the 10 are 
past or current UNITY members. I can't give you any specific 
percentages but we're seeing many who are going on to become 
leaders in their chosen professions.
    Mr. Moorehead. Is there any demand under the label of 
leadership skills in terms entrepreneurship in young Indians 
wanting to learn business skills, start businesses and what 
have you?
    Mr. Cook. Some are. One of our goals is to promote self 
sufficiency, to promote entrepreneurship. We're trying to 
include that. We don't have any partnership really with such a 
group other than the National Endowment for Financial Education 
which collaborated with us in producing a booklet on ``Weaving 
Your Future with Wisdom and Money.'' We think that is an 
important first step.
    Also, at conferences and on the Internet, we want to start 
exposing the youth to more business opportunities and 
entrepreneurship.
    Mr. Moorehead. Ms. Dorsett, would you have any comments on 
those issues?
    Ms. Dorsett. I just wanted to share one experience. While 
we were at the Palm Springs UNITY conference this year in 
California, we had a 2-day meeting for Celebrate Fitness 
projects. We were sitting there in discussion and the question 
came especially with regard to diabetes and all the other 
health issues that Native Americans have, why aren't we making 
a change? There is a reason things don't seem to be getting 
better. Why is that?
    Again, through discussion we went back to the mental health 
aspect of it. If you don't feel good enough about yourself to 
care about your health physically or mentally, I feel that 
needs to be addressed. They have to work together. Health 
issues in my opinion could and oftentimes are the result of a 
person's mental health. If those things are working together, I 
don't know but I just wanted to add that to your question on 
diabetes.
    Thinking back to the people in my community, they know they 
have diabetes but they continue to eat the wrong foods, don't 
exercise and they don't get off the couch. Why? They know but 
they are not doing it. I think looking at that question, maybe 
some solutions can come from that.
    Mr. Moorehead. Based on the meetings and discussions you 
have had, are there any preliminary patterns or preliminary 
reasons that you can determine?
    Ms. Dorsett. As to why they are not addressing it? That's 
what we came up with. We felt possibly the mental issue is the 
big problem. We don't feel good enough about ourselves to make 
our health a priority and it's almost an acceptable thing--not 
acceptable, but it's not important--I don't even know how to 
say that but we're used to it as a comfortable type mentality, 
even though we know the consequences. Something has to be 
brought to their attention or through the media campaigns or 
whatever. Again, I go back to the mental health issues. That 
has to be dealt with or at least work in collaboration with the 
health aspect.
    Mr. Moorehead. Mr. Lowery, your testimony talked about the 
need to develop leadership skills and activities among Native 
youth and professional athletics is a very glamorous job, most 
of what we see is winning or on TV. Does the disciplined side 
of athletics come through in your experience in working with 
young people and do you find that to be a helpful and 
unintended consequence as a result of training and physical 
regimens?
    Mr. Lowery. Absolutely. There is a relationship. The 19 
Nation Building for Native Youth participants for this year who 
were not selected for their athletic ability went through 4 
days of training and then literally as we drove toward the 
forest fire on the White Mountain Apache Reservation, they made 
it clear they wanted to do several more things than what we had 
asked of them. We had asked them to talk to the White Mountain 
Apache Tribal Council. What we got was a meeting in the midst 
of this forest fire with the chairman. They asked, can we also 
participate in the sports. What we did not realize was that 
almost every one of these young people who represented nine 
different tribes from around the country were excellent 
athletes as well. I think it's common knowledge that some of 
the data that have been released on early childhood development 
show that those young people that engage in athletics at an 
early age learn socialization skills, self confidence, self 
esteem, have the ability to relate to others and have a 
perspective that is more mature and more advanced. You see this 
self confidence.
    The difference we're talking about today is to take these 
raw materials and create training programs like Greg Mendoza 
has done on Gila River where he literally lets the youths speak 
for themselves. When I was there with Danny Glover 3 weeks ago 
in Palm Springs, to hear the caliber of these young people, 
these are not people with voices of 17-, 18-, and 19-year-olds. 
These are people that sound like they're in their late 20's, 
have multiple degrees and have an articulation and an ability 
to help organize group consensus that is far more mature than 
anything I've witnessed in my life working with youth.
    Mr. Moorehead. That discipline and those lifestyles are 
mutually reinforcing in other areas I take it in terms of diet, 
exercise, and frame of mind and what can be imported into other 
areas of one's life?
    Mr. Lowery. I think that's absolutely true and I think it's 
also this notion of what is a role model. If Native Vision 
began by using pro athletes as the catalyst for role models, 
the idea was not that the pro athlete was the quintessential 
role model. The idea was the best role model is the Native 
American like Mary Kim Titla, who J.R. was indirectly 
mentioning, who was Ms. UNITY a long time ago and who now is 
the chairman of UNITY and one of the foremost, full-blooded 
indigenous reporters in this country. It's remarkable what kind 
of effect this has.
    It becomes a catalyst to help these young people look at 
themselves as role models and the effect they have immediately 
within their own family and also the sort of elder relationship 
that actually Mr. Walters talked about, focusing on the elders. 
When you do these programs, you have to have a vital 
involvement by the elders of the community which is part of 
Native culture anyway. That's when you have a wonderful synergy 
of role models where kids develop a sense of who they really 
are.
    Mr. Moorehead. In a related question I think we could ask 
all the panelists, you mentioned families, Mr. Lowery. Is this 
a generational issue? Americans across the country in the last 
generation have become more aware of exercise, good diet, and 
what have you. Is there a generational issue here at work too 
with Native youngsters that smoking is a bad thing no matter 
what the circumstances, alcohol generally is a bad thing no 
matter what the circumstances, and is this a unique phenomenon?
    Mr. Lowery. We all know and I think all of us have 
different perspectives on this, but actually, I worked with Mr. 
Walters in the Drug Abuse Policy Office in 1988 for Donald Dan 
Macdonald and the patterns of learning, what your behavior is 
and how it affects your life, is very complex. We know there 
are immense problems that continue to exist today but those 
young people who look at themselves for what they are capable 
of, as the glass being half full, that initiates a pattern that 
changes their framework and inspires many others around them.
    Mr. Biggs. I would only say that working clinically, the 
adolescents that you see who have that positive self esteem 
about them, you can pick them out as they come through the 
door. They are very different than some of their peers. They 
are often involved in activities such as people have presented 
around the table. I think that self esteem really makes a big 
difference in terms of the choices they make whether it be 
exercise, to smoke or not to smoke or to drink or not to drink. 
I believe that is a very powerful piece.
    Mr. Moorehead. Mr. McCaleb testified that the first 
teachers any young child has are his or her parents. Do these 
programs and initiatives involve parents as well or is it more 
narrowly tailored to youngsters? Mr. Cook?
    Mr. Cook. I think I'd prefer to yield to the education 
expert but if I'm understanding your question, we certainly 
need to strengthen Native families. There are so many 
dysfunctional families that there has to be outside help. We 
can't rely totally upon just the natural parents. That's where 
Boys and Girls Clubs, just committed men and women, coaches, 
others who can help support the child come into play. Teresa?
    Ms. Dorsett. I think the last two questions you asked maybe 
I can address in one answer. You asked was this a generational 
deal with smoking, I don't think it's oh, my mom smokes, so I'm 
going to smoke or my mom drinks, so I'm going to drink. To some 
extent it is that, but our kids just don't have anything else 
to do, plus they're looking for something. When the positive is 
not there, what else do they have but the negative and that's 
the smoking, the drinking, the getting into trouble, and the 
violence.
    I was thinking in regard to the Boys and Girls Club, the 
Cheyenne-Arapaho Tribes have one Boys and Girls Club program in 
the whole northwest part of Oklahoma and I was thinking about 
programs in our area specifically for Native Americans and I 
believe that is the only one. That is one elementary school 
that provides that program. It is like a godsend to that 
community. It's a place for their kids to go after school, they 
provide different programs, the arts and crafts and the 
sporting stuff.
    The family issues need to be addressed, the breakdown of 
family in any community and I think I pointed out that funding 
needs to be available for tribes to specifically have mental 
health facilities right there for our Native people to walk 
into. I feel like awareness campaigns on the effects of the 
mental health status of our communities and the many different 
areas in which--I just think people don't know. I think that's 
an area that is overlooked.
    I don't think that's only with Native American people but 
it is a significantly bigger issue with Native people. Because 
of this historical, unresolved grief, I love that term because 
I feel we haven't resolved the grief from way back when and we 
have a lot of sadness and anger and we don't know. Our kids are 
lost and our parents are lost, and I feel the elders want to 
help but most of the time, they are not asked, we don't go to 
our elders and ask. I could talk forever on that. I'll let it 
go.
    Mr. Moorehead. Mr. Lewis, your testimony includes some 
discussion of the GREAT Program with relation to gangs. Can you 
describe for the committee some of the successes that the Boys 
and Girls Clubs have had with GREAT up to now?
    Mr. Lewis. One location comes to mind and that is Gila 
River. When we started that particular club about 7 years ago, 
there was significant gang activity there at Gila River largely 
because there was no positive activities to participate in. So 
that vacuum was quickly filled by gang activity and other 
negative activities.
    We introduced the Boys and Girls Club and we actively 
welcomed those who participated in gangs. These are either 
``wannabe'' gangs or gangs taking it to the next step and 
involved in some petty crime and so forth. There are other 
areas where we were getting more serious and you have the Crips 
and Bloods and use of firearms and so forth.
    In this situation, applying that GREAT Program along with 
the comprehensive nature of the Boys and Girls Club, not just a 
GREAT Program but also the other positive activities within the 
club and the extracurricular activities outside the club that 
allows these youth to have an alternative to say no the peer 
pressure or to realize there is some positive alternatives they 
can be exposed to.
    So the gang activity has been reduced, not eliminated, but 
substantially reduced. Graffiti has been reduced around the 
club. It's not inside the club. When they come inside the club, 
they know they are entering something that belongs to them in a 
sense and to the youth of that community and has really had a 
positive influence on the Salt River Indian community as well.
    There is a focus on ensuring when we go into a community 
that we assess what is critically needed and if there are 
significant gang issues, then we have people who are trained 
within our national organization to come and provide hands-on 
training of how to detect youth gang activity as well as how to 
arrest it and make sure we orient them to positive 
alternatives.
    Mr. Moorehead. In Gila River, for instance, are there 
border security issues with the tribes of the southwest that 
GREAT has begun to deal with as well or the Boys and Girls 
Clubs have been forced to deal with or is that another issue 
entirely?
    Mr. Lewis. Border in terms of?
    Mr. Moorehead. Border security, illegal immigration, 
narcotics?
    Mr. Lewis. Not with Gila River that I'm aware of. The only 
one that perhaps might come into that circumstance and they 
don't have a Boys and Girls Club at this time, would be 
Banahabton down in southern Arizona.
    Mr. Moorehead. In your testimony, you also mentioned local 
decisionmaking and local control. In your experience, are we 
now in a mid-phase between a Washington-oriented dictation of 
programs to one more where the tribal councils and tribal 
governments themselves tailor these programs and is that what 
you attribute the success to?
    Mr. Lewis. I contribute the success to the fact that 
you've--when I say local control, I don't necessarily mean 
tribal control. There certainly is a desire to partner with the 
tribe but clearly we don't want this to be seen as another 
Federal program or another tribal program. We've had enough of 
those that are there one day and because of lack of funding or 
lack of support, fade away.
    Local control in terms of involvement of community members 
who are volunteers that serve on the board, you have staff in 
the community that serve there full-time to organize the 
activities, they run the operation and then getting others 
involved on an as needed basis for other extracurricular 
activities as coaches, as chaperons to other activities. So 
local control is centrally important, particularly in Indian 
country where all too often someone arrives with a program in 
hand that they don't allow any flexibility and they are seen as 
the ones controlling that type of activity.
    It definitely needs that because each of the tribes are 
different, have a different issue, and certainly when it comes 
to the cultural issues, it has to be locally controlled and 
influenced.
    Mr. Moorehead. You also mentioned the explosion in the 
number of Boys and Girls Clubs across the country. I think the 
number you mentioned was the target of 200?
    Mr. Lewis. 200 by 2005.
    Mr. Moorehead. Of those 200, would those use existing 
facilities of the Bureau or new facilities? Can you describe 
that a bit?
    Mr. Lewis. It's a variety of all the above. You have some 
that use Bureau school facilities, some that have used 
abandoned HUD homes, some that have converted abandoned 
facilities. I keep going back to Gila River but they had an 
abandoned school facility that was converted to a Boys and 
Girls Club. Salt River had an abandoned HUD house that was not 
being used, about half the size of this committee room but 
within that club is a computer, a library, a game room and the 
staff offices. We have the brand new Sioux and Big Crow 
facility at Pine Ridge which is an effort by a consortium of 
Federal agencies that includes a state of the art gymnasium and 
an olympic size swimming pool all indoors.
    You have others that are fine facilities that no one knows 
who has used it or they have been reluctant to turn over but 
when they see the success with the kids--everyone obviously 
would like a new facility like Sioux and Big Crow but they are 
just as happy when they are able to convert something that has 
been used that they could call their own.
    For some that don't have facilities, that's why we're 
pushing the use of Bureau facilities as well.
    Mr. Moorehead. With regard to the idea in your statement 
regarding consolidation of Native youth programs, can you 
describe the kinds of programs that you have in mind? Would 
they be facility construction programs, services or what kind 
of programs are we talking about?
    Mr. Lewis. I'm not an expert on all the youth type programs 
that are available but certainly I talked in my testimony about 
the Indian Alcohol and Substance Abuse Act where there are some 
activities if formula driven and suddenly a tribe only ends up 
with $10,000 or $15,000, hardly enough to afford a full-time 
person to engage in a prevention activity, that same amount 
would make a huge difference if you apply it to a Boys and 
Girls Club that could run it on a consistent basis to a wide 
audience of boys and girls and a wide age range as well.
    Other programs that they might be eligible for but either 
can't apply for it directly or have to apply for it through the 
tribe, again that introduces a whole set of issues that 
frustrates funding sources.
    Certainly other national programs that we ought to be able 
to tie into, in our case, Americorps has been excellent because 
they send out staff on a short term basis but when they are 
there for that period of time, they put in a lot of work to 
help us redo facilities or help out with club work. More of 
that is certainly necessary.
    If we're to get serious about this issue, we need to 
address it aggressively and consolidation is one answer but 
targeting Native youth exclusively and giving them 
appropriations over a period of years in the neighborhood of 
$100 million is something that ought to be done. It can be used 
in a variety of ways as long as you have a youth organization 
with a proven track record and we're not going out again and 
just doing pilot projects for the sake of doing more studies or 
test this or that.
    Indian country of all has been studied to death. We're past 
that stage. We have outlined here in five separate testimonies 
the issues. They are well known and documented. Now it is just 
aggressively pursuing it. When you get the FACE Program that 
only has less than $7 million reaching out to 33 schools and 
have over 200 schools, they have a problem there and there's 
going to be a negative consequence because of that.
    If we can get more involved in UNITY, that's great but 
again, without the resources that help us provide the facility 
where they could come as well as the program, as well as the 
staff and make sure they are not worried did I miss the 
deadline for this particular grant, am I out of compliance or 
I've got another report to fill out, the same report I had to 
fill out for this agency, that's going to help tremendously.
    Mr. Moorehead. What has been your experience in the demand, 
the appetite, the interest of the private sector in these 
programs? Mr. Lowery, has the professional sporting goods firms 
been interested in youth initiatives and if they haven't, why 
not?
    Mr. Lowery. I think companies act in their self interests 
as well as hopefully in the interest of the community. 
Professional athletes at Native Vision can help bring the 
spotlight where a company can see clearly we are making a 
difference.
    I think the theme of consolidation and coordination applies 
here as well: Bringing the salient role models not just those 
from professional sports who are not American Indian but those 
that are actually American Indian, bringing those people for 
the success stories. We certainly would like to make ourselves 
available with the NFL Players Association and people from the 
NBA that participate in Native Vision to make messages 
available to say this is going on.
    Speaking of messages, Mr. Lewis talked about the 
comprehensive nature of the Boys and Girls Club programs. One 
example that gets the attention of these businesses, to my mind 
one of Native Vision's most successful programs, is on the Wind 
River Reservation. It is a simple concept, a media program 
where the youth work with a radio station. Companies like radio 
stations and television stations to talk about what they do in 
the community.
    The simple relationship is the radio station helps provide 
time where the youth write, produce and perform their own 
public service announcements where they say, here I am on Wind 
River, here are my problems in my life and here is how I choose 
to try to solve them. We started that several years ago. There 
have been 350 youth that have participated. It changes 
permanently the way they look at themselves, to hear their 
voice going all over the State of Wyoming, it changes the way 
others look at them. It is a great model for empowering youth, 
if you define empowering youth as increasing their capacity to 
tell their own stories, ask their own questions and make their 
own choices.
    Those are the criteria that businesses need to focus on. 
How can we give voice to youth. There is a win-win for a 
company. Cause branding does work where the company allows 
Native youth to say here is my life, here is how I try to solve 
my problems, and they indirectly get some benefit from that.
    Mr. Cook. I think one of our challenges is that we have 
such a small staff and it takes professionals to write the type 
of grants, costs a lot of money to contact the foundations to 
follow up and somehow we need a stronger partnership with the 
private sector that our only funding from the private sector at 
this time is the Robert Wood Johnson Foundation. It took 
several years of effort to develop that partnership.
    Somehow I know there is a need and I suppose other 
organizations could use help in locating where grants are 
available or where corporations are interested in helping and 
to follow through. That's kind of our situation.
    Mr. Lewis. Again, for corporations and now I put my hat on 
as an employee of Bank of America, we look at is the program 
sustainable? If it's a program where they know that essentially 
their dollars are going to be used in a way where it is going 
to be a repeat proposal, they don't get as excited about if 
they can really see it is going to make a tangible difference. 
Bricks and mortar are not as interesting an issue to respond to 
as a specific program that is going to make an impact on the 
kids, whether it be financial literacy, reading, computers and 
so forth.
    Second, as I said in my remarks, if we go forward and focus 
on Native American youth programs, it has to be with 
organizations with a proven track record. In the case of Boys 
and Girls Clubs, with a 150-year track record, we come through 
and they know what our symbol is, they know the comprehensive 
nature of our program, you have a lot of corporations with CEOs 
who went through a Boys and Girls Club. They have an idea of 
what they are contributing to and know it can make a difference 
as opposed to someone saying we contribute to my youth program. 
I have no idea what that means, what that is, how many youth is 
serves. Is it really being run in a professional manner and is 
it accountable in terms of being financially accountable, are 
the dollars being spent or has it excessive administrative 
costs?
    All those factors go into how a corporation will look at 
it, how I will look at it on behalf of Bank of America and in 
terms of our foundations as well.
    Mr. Biggs. What everybody here is really talking about is 
prevention activities, whether through the Boys and Girls Club, 
Vision, UNITY. The Indian Health Service, as you know, has a 
health promotion, disease prevention arm that works with them 
and that funding comes through the Federal Government. That 
program which is variably available in Indian country depending 
on where you are, is designed to incorporate the local people 
in coming up with ideas and ways to improve their health.
    As we talked about how to engage families, these kinds of 
programs came to mind--there's one in particular that exists on 
the Navajo Reservation called the Just Move It Program, a 
reservation-wide family exercise program, with an evening run 
every week across the reservation. It has just blossomed and is 
a huge event now. It engages families and engages youth. I 
believe those are the kinds of programs in the community that 
make a difference and that are available through health 
promotion dollars through the Indian Health Service.
    Mr. Moorehead. Thank you.
    I have exhausted the list of Senator Campbell's questions. 
I am unable to adjourn this hearing, so for lack of a better 
word, we are excused.
    I want to thank the panel, Ms. Dorsett, Mr. Cook, Mr. 
Lowery, Mr. Biggs and our friend, Dan Lewis.
    With that, on behalf of Senator Campbell, I want to thank 
you all for coming and testifying. He undoubtedly will have and 
the committee may have questions they would like to submit to 
you in writing and if we could get those out to you in the next 
couple of days, the hearing record will stay open probably for 
a good month or so.
    Mr. Moorehead. With that, have a nice day. Thank you.
    [Whereupon, at 3:55 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


  Prepared Statement of Neal McCaleb, Assistant Secretary for Indian 
     Affairs, Bureau of Indian Affairs, Department of the Interior

    Mr. Chairman and members of the committee, I am pleased to be here 
today to discuss Native American Youth activities and initiatives 
within the Office of the Assistant Secretary--Indian Affairs and the 
Bureau of Indian Affairs [BIA].
    The problems encountered by Indian youth as they grow up on the 
reservation are the prevalence of alcohol and substance abuse and the 
consequent social dysfunction created by substance abuse. These 
problems are, in my opinion, a result of sustained economic deprivation 
and the hopelessness of having little expectation of having a career or 
meaningful employment on the reservation. These problems are chronic 
and seemingly intractable and will require a concerted and sustained 
effort by the Federal Government in it's role as Trustee to cause a 
measurable improvement.
    Opportunities for economic development should be promoted and 
nurtured by all agencies of the Federal Government through contracting 
and economic incentives for businesses in Indian country in a well 
coordinated fashion. We are sponsoring an Indian economic summit this 
fall to focus attention on the opportunities and mechanisms for 
business development on reservations. The objective must be the full 
participation of Indian communities in the economic prosperity of this 
country. It is our challenge to help Indian families overcome obstacles 
related to poverty and isolation.
    We have one such successful BIA initiative carried forward by the 
Office of Indian Education Programs [OIEP] called the Family and Child 
Education Program, otherwise referred to as the FACE program. This 
unique program provides family literacy services to American Indian 
parents and their children from birth through third grade. The goal is 
to provide support to parents in their role as their child's first and 
most influential teacher. Through the FACE program, families receive 
services in their homes and at school. The FACE program is unique in 
that it is one of the few Federal program designed to include the 
collaborative efforts of Federal, tribal and private organizations to 
achieve these objectives.
    The FACE program began as a pilot initiative in 1991 was 
implemented in six BIA funded schools and communities. Over the years 
the program has expanded to the current 32 programs. Beginning in 
school year 2003-04, the program will grow to 39.
    The Parents As Teachers organization based in St. Louis, MO, and 
the National Center for Family Literacy based in Louisville, KY, 
provide on-going training and technical assistance to the staff to 
implement this program. The training and technical assistance provided 
to the local based FACE program staff is held at national meetings and 
onsite in the community at a BIA funded school to ensure a high level 
of quality implementation. The impact of the FACE program is measured 
annually with formal evaluations conducted by the Resource and Training 
Associates [RTA] of Overland Park, KS. The executive summaries are 
available at the BLA/OIEP web site.
    Recently, during a recent trip to New Mexico, I saw the FACE 
program in action. It was evident that there is a family atmosphere. I 
saw moms, dads, grandparents, and youngsters participating as partners 
in their child's education as well as their own. The school and 
community look with pride at their FACE program which, although it is a 
model, is adapted to reflect the culture and community of the local 
setting. It is impressive to see the program staff who are community 
members speaking both English and their native language, during the 
program.
    Over the past 11 years, over 5,000 families have participated, 
representing 15,000 adults and children. It should be noted that the 
FACE program requires adult participation. For every child in the 
program, a parent or significant caring adult must also participate. 
Children are not served without an adult. Seventy-five percent of the 
FACE program families are learning English as a second language. Sixty-
nine percent of the FACE program adults served are mothers, 21 percent 
are fathers and 10 percent are grandmothers and/or other relatives. 
Five or six individuals reside in the homes of most of the FACE program 
families. The number residing in homes range from 2 to 16. 
Participating families usually are comprised of two or three 
individuals but the BIA OIEP records show there have been as many 8.
    As a direct result of their participation in the program, 1,500 
parents have gained job skills resulting in their employment, and 600 
have completed their GED or gained their high school diploma. Sixty 
percent of the FACE program adults improve their reading and math 
skills. Ninety-one percent of the FACE program parents report reading 
to their child everyday.
    Parents who participate in the FACE program remain involved in 
their child's education and demonstrate continued participation in the 
school such as serving on school committees, attending parent teacher 
conferences and volunteering in the classroom. BIA schools with the 
FACE program report higher levels of parent involvement than BIA 
schools without the FACE program. Ninety-one percent of the FACE 
program parents report that the FACE program schools are welcoming 
places for parents. This is particularly significant in that so many of 
the FACE program parents did not have successful experiences in schools 
and also for many they are returning to the same school in order to 
participate in the FACE program. As a direct result in their 
participation in the FACE program they increase their self esteem and 
become empowered. They gain a voice to express their concerns and to 
support or impact their child's education. Over the past 5 years the 
FACE program has conducted a parent essay contest to encourage parents 
to write about the impact the FACE program has made for them and their 
families. There are three winning essays selected and these are posted 
on the BLA/OIEP web site as personal stories or testimonies about how 
their lives and families have changed through the support they received 
through the FACE program. Overall, parents report that the most 
important thing they have learned from participating in the FACE 
program is improved parenting.
    Children who participate in both the home based services and school 
based early childhood program demonstrate higher proficiency in 
language, literacy, personal, social, mathematical thinking and social 
studies domains. The age of home based children is from birth through 
age three. These children and their parents receive the Born to Learn 
Curriculum, developed by the Parents As Teachers organization, which is 
based on the latest brain based research from birth to age 3. At age 3 
the brain is 80 percent developed which indicates how important it is 
to reach children in those earliest years and support parents with 
knowledge about child development and encourage their participation in 
age appropriate activities which will enhance learning and future 
academic achievement.
    Children age 4 and 5 are served at a BIA-funded school with their 
parents. The National Center for Family Literacy provides the training 
and support for early childhood and adult education teachers. The early 
childhood program is designed to implement a child centered active 
learning approach and the adult education program is based on the 
national standards for adult education. Each parent receives a program 
designed to address their unmet academic needs and improve job related 
or employment skills. Part of each day these FACE program adults 
participate in their child's classroom and engage in an activity with 
them. Part of each day is also set aside to discuss parenting and child 
development.
    A definition of early childhood includes birth through age 8, the 
FACE program schools provide children in grades K-3 with a child 
centered active learning approach. The K-3 teachers are trained by 
certified trainers at national meetings and onsite to ensure the 
quality of the FACE program implementation.
    Sharon Darling, Founder and Executive Director of the National 
Center for Family Literacy has stated that the finest examples of 
family literacy programs are found implemented in the FACE program.
    The FACE program is a quality program that has proven to support 
parents in one of their most important roles; as teachers of their 
children. This is an important program that impacts the critical early 
years of children by improving academic performance which leads our 
students to complete high school and improve their overall family 
literacy. I encourage all of you to visit one of our FACE program 
schools.
    It's this type of program that provides opportunities to the whole 
community by providing each individual with a role in shaping their own 
destiny. As the opportunity for self-realization of an individual's 
full potential develops within the cultural influence of the Indian 
community the social dysfunction of dependency will diminish and Indian 
youth will experience a new and brighter future.
    3 I will be happy to answer any questions you may have.

    [GRAPHIC] [TIFF OMITTED] T2753.001
    
    [GRAPHIC] [TIFF OMITTED] T2753.002
    
    [GRAPHIC] [TIFF OMITTED] T2753.003
    
    [GRAPHIC] [TIFF OMITTED] T2753.004
    
    [GRAPHIC] [TIFF OMITTED] T2753.005
    
    [GRAPHIC] [TIFF OMITTED] T2753.006
    
    [GRAPHIC] [TIFF OMITTED] T2753.007
    
    [GRAPHIC] [TIFF OMITTED] T2753.008
    
    [GRAPHIC] [TIFF OMITTED] T2753.009
    
    [GRAPHIC] [TIFF OMITTED] T2753.010
    
    [GRAPHIC] [TIFF OMITTED] T2753.011
    
    [GRAPHIC] [TIFF OMITTED] T2753.012
    
    [GRAPHIC] [TIFF OMITTED] T2753.013
    
    [GRAPHIC] [TIFF OMITTED] T2753.014
    
    [GRAPHIC] [TIFF OMITTED] T2753.015
    
    [GRAPHIC] [TIFF OMITTED] T2753.016
    
    [GRAPHIC] [TIFF OMITTED] T2753.017
    
    [GRAPHIC] [TIFF OMITTED] T2753.018
    
    [GRAPHIC] [TIFF OMITTED] T2753.019
    
    [GRAPHIC] [TIFF OMITTED] T2753.020
    
    [GRAPHIC] [TIFF OMITTED] T2753.021
    
    [GRAPHIC] [TIFF OMITTED] T2753.022
    
    [GRAPHIC] [TIFF OMITTED] T2753.023
    
    [GRAPHIC] [TIFF OMITTED] T2753.024
    
    [GRAPHIC] [TIFF OMITTED] T2753.025
    
    [GRAPHIC] [TIFF OMITTED] T2753.026
    
    [GRAPHIC] [TIFF OMITTED] T2753.027
    
    [GRAPHIC] [TIFF OMITTED] T2753.028
    
    [GRAPHIC] [TIFF OMITTED] T2753.029
    
    [GRAPHIC] [TIFF OMITTED] T2753.030
    
    [GRAPHIC] [TIFF OMITTED] T2753.031
    
    [GRAPHIC] [TIFF OMITTED] T2753.032
    
    [GRAPHIC] [TIFF OMITTED] T2753.033
    
    [GRAPHIC] [TIFF OMITTED] T2753.034
    
    [GRAPHIC] [TIFF OMITTED] T2753.035
    
    [GRAPHIC] [TIFF OMITTED] T2753.036
    
    [GRAPHIC] [TIFF OMITTED] T2753.037
    
    [GRAPHIC] [TIFF OMITTED] T2753.038
    
    [GRAPHIC] [TIFF OMITTED] T2753.039
    
    [GRAPHIC] [TIFF OMITTED] T2753.040
    
    [GRAPHIC] [TIFF OMITTED] T2753.041
    
    [GRAPHIC] [TIFF OMITTED] T2753.042
    
    [GRAPHIC] [TIFF OMITTED] T2753.043
    
    [GRAPHIC] [TIFF OMITTED] T2753.044
    
    [GRAPHIC] [TIFF OMITTED] T2753.045
    
    [GRAPHIC] [TIFF OMITTED] T2753.046
    
    [GRAPHIC] [TIFF OMITTED] T2753.047
    
    [GRAPHIC] [TIFF OMITTED] T2753.048
    
    [GRAPHIC] [TIFF OMITTED] T2753.049
    
    [GRAPHIC] [TIFF OMITTED] T2753.050
    
                               <all>

</pre></body></html>
